TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Insufficient E-Services Controls May Put
                           Taxpayer Information at Risk



                                           June 29, 2012

                               Reference Number 2012-40-071




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 2 (f) = Risk Circumvention of Agency Regulation or Statute


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


INSUFFICIENT E-SERVICES CONTROLS                        who can file a power of attorney electronically
MAY PUT TAXPAYER INFORMATION AT                         have access to Disclosure Authorization.
RISK                                                    Although the IRS requires tax professionals to
                                                        obtain a taxpayer signature before filing the
                                                        power of attorney, controls do not ensure tax
Highlights                                              professionals comply with the requirement. Tax
                                                        professionals are also using a power of attorney
Final Report issued on June 29, 2012                    for other than its intended purpose, such as
                                                        obtaining a power of attorney solely for the
Highlights of Reference Number: 2012-40-071             purpose of ordering and providing tax return
to the Internal Revenue Service Commissioner            transcripts for individuals who request them
for the Wage and Investment Division.                   online. In addition, tax professionals who have
                                                        access to e-Services but are not permitted by
IMPACT ON TAXPAYERS                                     the IRS to electronically file a power of attorney
By law, the IRS can generally disclose tax              can circumvent this control ********2(f)***********
information only to a taxpayer or that taxpayer’s       *************2(f)*******.
designee or attorney-in-fact. Taxpayers can             Lastly, IRS employees have access to
authorize individuals to represent them and can         e-Services online tools but are prohibited from
authorize a designee or attorney-in-fact to             participating in tax preparation activities. The
receive confidential tax information. Taxpayers’        IRS should not allow IRS employees to have
sensitive tax return information is at risk of          access to Disclosure Authorization and the
unauthorized disclosure when controls are               Transcript Delivery System without managerial
insufficient to ensure that tax professionals           authorization and a business need.
properly file a power of attorney with the IRS
before it discloses taxpayer information to them.       WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                                 TIGTA recommended the IRS conduct periodic
                                                        data analysis to identify tax professionals using
This audit was initiated as a result of a referral      Disclosure Authorization for purposes other than
from the TIGTA Office of Investigations that            its intended purpose. The IRS ********2(f)********
identified a potential e-Services control               ******2(f)*********** to verify tax professionals
weakness over electronically submitted powers           retain a signed power of attorney before
of attorney. E-Services is a suite of web-based         submitting one through Disclosure Authorization.
products for tax professionals that provides            Also, the IRS should periodically review policies
multiple electronic IRS products and services.          for granting Disclosure Authorization access to
The overall objective of this review was to             tax professionals, especially unenrolled tax
determine if controls over e-Services are               return preparers and registered tax return
sufficient to prevent unauthorized access to            preparers. Finally, the IRS should ensure
taxpayer information.                                   unauthorized IRS employees do not have
WHAT TIGTA FOUND                                        access to e-Services and monitor transactions of
                                                        employees who are authorized access.
Taxpayer information may be at risk of
unauthorized disclosure and misuse when tax             IRS officials agreed with the intent of three of the
professionals electronically submit powers of           four recommendations and plan to take actions
attorney. Controls are insufficient to ensure:          to improve internal controls for accessing and
1) tax professionals obtain a signed Form 2848,         using Disclosure Authorization and the
Power of Attorney and Declaration of                    Transcript Delivery System. They did not agree
Representation, before submitting it via                tax professionals are misusing Disclosure
e-Services Disclosure Authorization; 2) tax             Authorization by requesting transcripts;
professionals use Form 2848 only for its                however, tax practitioners are obtaining powers
intended purpose; and 3) only tax professionals         of attorney with no intention of representing
                                                        taxpayers before the IRS.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 29, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Insufficient E-Services Controls May Put
                             Taxpayer Information at Risk (Audit # 201240033)

 This report presents the results of our review to determine if controls over e-Services are
 sufficient to prevent unauthorized access to taxpayer information. This audit originated from a
 referral from the Treasury Inspector General for Tax Administration Office of Investigations that
 identified a potential weakness over electronically submitted powers of attorney that allows tax
 professionals with access to e-Services to obtain tax account records without the taxpayer’s
 knowledge and/or authorization. This audit is included in our Fiscal Year 2012 Audit Plan and
 addresses the major management challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Randee Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                                               Insufficient E-Services Controls May
                                                Put Taxpayer Information at Risk




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Controls Over E-Services Are Insufficient to Prevent or
          Detect Unauthorized Disclosure of Taxpayer Information ........................... Page 5
                    Recommendation 1:........................................................ Page 12

                    Recommendations 2 and 3: .............................................. Page 13

          Internal Revenue Service Employees Have Access to
          E-Services ..................................................................................................... Page 14
                    Recommendation 4:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Confirmation Letter Sent to Taxpayers................................ Page 20
          Appendix V – Confirmation Letter Sent to Tax Professionals ..................... Page 23
          Appendix VI – Form 2848, Power of Attorney and
          Declaration of Representative ....................................................................... Page 25
          Appendix VII – Management’s Response to the Draft Report .................... Page 27
                          Insufficient E-Services Controls May
                           Put Taxpayer Information at Risk




                             Abbreviations

e-file(d), e-filing   Electronically file(d); electronic filing
IRS                   Internal Revenue Service
                                         Insufficient E-Services Controls May
                                          Put Taxpayer Information at Risk




                                              Background

In Calendar Year 2011, more than 112 million taxpayers opted to electronically file (e-file) their
Federal tax returns by using commercial software to prepare and file their tax returns, by using
the Internal Revenue Service’s (IRS) various e-filing products offered on its public Internet site
(www.IRS.gov), or by e-filing through a paid tax return preparer. In order for tax professionals
to conduct business electronically, including e-filing, the IRS developed a suite of web-based
products, called e-Services Online Tools for Tax Professionals (online tools), which provides
multiple electronic products and services to tax professionals. The suite is not available to the
general public; rather, only approved IRS business partners are eligible to participate. Figure 1
lists the e-Services products offered to tax professionals.
                                     Figure 1: E-Services Products
    Disclosure        Eligible tax professionals may complete authorization forms, view and modify existing forms,
    Authorization     and receive acknowledgement of accepted submissions of tax returns immediately—all
                      online. Disclosure Authorization allows tax professionals to electronically submit a power of
                      attorney and Form 2848, Power of Attorney and Declaration of Representative, and
                      Form 8821, Tax Information Authorization. This service expedites processing and issues a
                      real-time acknowledgment of accepted submissions.
    E-File            Applicants can complete the IRS e-file Application using the Internet. Applicants can start
    Application       the process and save applications in progress so that modifications to a firm's application
                      can be made quickly and easily without restarting the process. Users can check the status
                      of the application as the IRS makes updates to the suitability check. Users can also easily
                      adapt their application to the changes in their businesses. The application allows
                      management of all Authorized IRS e-file Provider1 information in one place and it more
                      easily updates the information when changes occur.
    Electronic        Electronic Account Resolution allows tax professionals to expedite closure on clients’
    Account           account problems by electronically sending/receiving account-related inquiries. Tax
    Resolution        professionals may inquire about individual or business account problems, refunds,
                      installment agreements, missing payments, or notices. Tax professionals must have a
                      power of attorney on file before accessing a client’s account. The IRS delivers its
                      response to a secure electronic mailbox within three business days.




1
  E-file Providers are businesses and organizations that facilitate e-filing and can be an Electronic Return Originator,
Intermediate Service Provider, Transmitter, or software developer. Electronic Return Originators originate the
electronic submission of income tax returns to the IRS. An Electronic Return Originator electronically submits
income tax returns that are either prepared by the Electronic Return Originator firm or received from a taxpayer.
Intermediate Service Providers receive tax information, process it, and return it to an Electronic Return Originator,
or forward it to a transmitter. Transmitters, once the return is prepared, send the income tax return data to the IRS.
Software developers write the e-file programs according to IRS file specifications and record layouts, making IRS
e-file and Federal/State e-file possible.
                                                                                                                Page 1
                                         Insufficient E-Services Controls May
                                          Put Taxpayer Information at Risk



    Taxpayer          A prefiling service offered to payers and/or authorized agents who submit any of six
    Identification    information returns subject to backup withholding. With Interactive Taxpayer Identification
    Number            Number Matching, authorized payers can match up to 25 payee Taxpayer Identification
    Matching          Number and name combinations against IRS records prior to submitting an information
                      return. Bulk Taxpayer Identification Number Matching allows payers and/or authorized
                      agents filing any of the six information returns to match up to 100,000 Taxpayer
                      Identification Number and name combinations.
    Transcript        Eligible tax professionals may use the Transcript Delivery System to request and receive tax
    Delivery          account transcripts,2 wage and income documents, tax return transcripts, and verification of
    System            nonfiling letters for both individual and business taxpayers. Tax professionals must have a
                      power of attorney authorization on file with the IRS before accessing a client's account (or
                      use Disclosure Authorization to file an authorization on a new client and obtain Transcript
                      Delivery System information immediately).
Source: IRS.gov.

Only approved IRS business partners are eligible to participate in e-Services. When applying for
access, applicants provide information the IRS can verify using existing taxpayer records. The
applicant’s professional status determines the type of documentation that he or she must submit.
         Tax professionals with professional certifications, such as certified public accountants,
          attorneys, and enrolled agents,3 do not have to meet e-file requirements4 and do not need
          to submit fingerprint cards. The IRS allows these individuals to send a copy of their
          certification in lieu of a fingerprint card.
         Most other tax professionals without professional certifications must meet e-file
          requirements and submit a fingerprint card, and they are subject to an IRS screening
          process that may include criminal background or credit history checks.
This audit originated as the result of a referral from the Treasury Inspector General for Tax
Administration Office of Investigations. Investigators identified a potential control weakness
that allows tax return preparers with access to e-Services to electronically submit powers of
attorney and obtain taxpayers’ tax account records without taxpayer knowledge and/or
authorization. Disclosure Authorization and the Transcript Delivery System allow
e-Services participants to electronically file a power of attorney and then immediately submit
and obtain taxpayers’ tax account information.
By law, the IRS can generally disclose taxpayers’ tax information only to the taxpayer or the
taxpayer’s designee or representative. Taxpayers can authorize one or more individuals to


2
  A tax account transcript provides basic information, including marital status, type of return filed, Adjusted Gross
Income (gross income minus adjustments to income), taxable income, and later adjustments, if any.
3
  These professionals pass an IRS examination or present evidence of qualifying experience as a former IRS
employee and have been issued an enrollment card.
4
  The e-file requirement is for tax professionals to electronically file five or more accepted individual and/or
business returns.
                                                                                                               Page 2
                                          Insufficient E-Services Controls May
                                           Put Taxpayer Information at Risk



represent them on tax-related issues and can authorize a designee or representative to receive
confidential tax information. The IRS provides specific forms taxpayers and tax professionals
can use for each situation.
          Form 2848, Power of Attorney and Declaration of Representative – Taxpayers can use
           this form to authorize an individual or individuals to represent them before the IRS. It
           authorizes the listed representative(s)5 to receive and inspect confidential tax information
           and to perform all acts (that is, sign agreements, consents, waivers, or other documents)
           that taxpayers can perform with respect to matters described in the power of attorney.
           Form 2848 specifically states the IRS will not honor Form 2848 for any purpose other
           than representation before the IRS. In addition, when the IRS accepts the Form 2848, it
           supersedes any existing powers of attorney for the tax periods specified unless the
           taxpayer or tax professional indicates otherwise on the form and provides a copy of the
           previous power of attorney that needs to remain in effect.
          Form 8821, Tax Information Authorization – Taxpayers can use this form to authorize
           an individual or organization to receive or inspect confidential tax return information. By
           completing this form, the taxpayer does not authorize an individual or organization to
           represent him or her before the IRS.
          Form 4506-T, Request for Transcript of Tax Return – Taxpayers can use this form if
           they want to authorize an individual or organization to receive or inspect transcripts of
           confidential tax return information, but do not want to authorize the individual to
           represent them before the IRS. Taxpayers often use this form to authorize third parties to
           verify their compliance with Federal income tax requirements.
Tax professionals can use Disclosure Authorization only to submit Forms 2848 and 8821. They
cannot use it to submit a Form 4506-T.
Since Fiscal Year 2004, e-Services users have submitted more than 899,000 Forms 2848 to the
IRS via Disclosure Authorization and almost 16.9 million transcript requests from tax
professionals using the Transcript Delivery System. Figure 2 shows the steady increase in the
number of e-Services users, Forms 2848 filed electronically, and transcript requests.




5
    Appendix VI provides a copy of Form 2848. Part II of Form 2848 includes a list of representatives.
                                                                                                         Page 3
                                          Insufficient E-Services Controls May
                                           Put Taxpayer Information at Risk



        Figure 2: Increases in Usage of E-Services, Disclosure Authorization,
             and the Transcript Delivery System Since Fiscal Year 2004

                                                                      30.00%




                                                                               Percentage of Total Use Since 2004
                                                                      25.00%

                                                                      20.00%

                                                                      15.00%                                        Forms 2848 Submitted
                                                                                                                    Transcript Requests
                                                                      10.00%
                                                                                                                    e‐Services Registrations
                                                                      5.00%

                                                                      0.00%
     2004     2005     2006     2007      2008   2009   2010   2011
                                  Fiscal Year

Source: e-Services Statistical Reports.

This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, during the period November 2011 through April 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                                                    Page 4
                                        Insufficient E-Services Controls May
                                         Put Taxpayer Information at Risk




                                       Results of Review

Controls Over E-Services Are Insufficient to Prevent or Detect
Unauthorized Disclosure of Taxpayer Information
During Calendar Year 2011, tax professionals submitted more than 2.5 million transcript
requests through e-Services. A statistical sample of 600 of the 2.5 million transcripts showed
that controls are sufficient to ensure that tax professionals who request taxpayers’ tax return
information file a power of attorney with the IRS before it disclosed taxpayer information to
them. However controls are insufficient to ensure that:
        Tax professionals obtain a signed Form 2848 before submitting it via e-Services
         Disclosure Authorization. The IRS’s Disclosure Authorization guidelines and online
         tutorial requires that tax professionals obtain the taxpayer’s signature on a paper
         Form 2848 before submitting an electronic request through Disclosure Authorization.
        Tax professionals use Form 2848 only for its intended purpose(s). Taxpayers should
         use Form 2848 only to authorize a tax professional to represent them. Taxpayers should
         use Form 4506-T when they want an individual or organization to receive their tax return
         information.
        Only tax professionals who can file a Form 2848 electronically have access to
         Disclosure Authorization. This generally includes tax professionals who qualify as
         attorneys, certified public accountants, or enrolled agents. Unenrolled tax return
         preparers and registered tax return preparers6 must submit a Form 2848 on paper.
During a two-month period between October 1 and November 30, 2011, tax professionals
electronically submitted 153,224 Forms 2848 and subsequently requested at least one transcript
for the period covered on those forms. We randomly selected 750 of the 153,224 Forms 2848
and sent 747 confirmation letters to the taxpayers for whom they were submitted.7 We asked
them to confirm that (1) they gave the tax professional listed on the Form 2848 permission to
receive tax information about them for the specific tax year listed and (2) they signed a
Form 2848 before the tax professional submitted it.


6
  Prior to 2010, the IRS did not regulate tax return preparers. All paid tax return preparers who do not have a
professional certification must register with the IRS and pass a competency test before January 1, 2014, to prepare
and file tax returns. Once they pass the competency test, they become registered tax return preparers. Unenrolled
tax return preparers are those who currently are paid preparers but who are not an attorney, certified public
accountant, lawyer, enrolled agent, or registered tax return preparer.
7
  We were unable to locate addresses for three taxpayers.
                                                                                                             Page 5
                                        Insufficient E-Services Controls May
                                         Put Taxpayer Information at Risk



Of the 373 responses (50 percent response rate) received from taxpayers:
        3 (0.8 percent) of the 373 taxpayers responded that they had given permission to the tax
         professional to receive information but had not signed a Form 2848.
        12 (3.2 percent) of the 373 had signed a Form 2848 but responded that they had signed it
         after the tax professional electronically submitted it to the IRS.
        16 (4.3 percent) of the 373 taxpayers responded that they had not given permission to the
         tax professional to receive tax information about them or signed a Form 2848.
Figure 3 shows these results projected to the population.8
                Figure 3: Analysis of Responses Received From Taxpayers
                                                         Sample
                                                                                            Projections for
                                                        of Forms       Percentage
                                                                                              Population
                                                          2848
    Gave Permission Without Signing Form 2848                3             0.8%                 254-3,570
    Signed Form 2848 After Submitted to
                                                            12             3.2%                2,559-8,504
    Disclosure Authorization
    Did Not Give Permission                                 16             4.3%               3,785-10,542

    No Issues                                               342           91.7%             136,197-144,783

    Totals                                                  373            100%                  153,224



      Source: Our analysis of taxpayers’ responses to our confirmation letters.

We also sent letters to the 560 tax professionals who electronically submitted 736 of the
750 Forms 2848 and requested hardcopies of the signed Forms 2848.9 Before tax professionals
submit an electronic power of attorney request through e-Services, they are required to obtain a
signature from the taxpayer on a Form 2848 and retain it. They are also required to provide the
IRS a copy of the Form 2848 upon request. We received responses from tax professionals for




8
  A sample size of 373 responses from taxpayers and error rates of 0.8 percent, 3.2 percent, and 4.3 percent allowed
us to project our results to the total population of 153,224 Forms 2848 at a 95 percent confidence level with standard
errors of 0.46 percent, 0.91 percent, and 1.05 percent, respectively. A point projection of 91.7 percent for instances
in which there were no issues allowed us to project our results at a 95 percent confidence level with a precision rate
of ±2.8 percent.
9
  We were unable to mail requests for 14 of the 750 Forms 2848.
                                                                                                              Page 6
                                        Insufficient E-Services Controls May
                                         Put Taxpayer Information at Risk



625 (85 percent) of the 736 Forms 2848. Figure 4 shows the results of the confirmation letters
sent to tax professionals, projected to the population.10
          Figure 4: Analysis of Responses Received From Tax Professionals


                                                                                                    Projections for
                                          Sample of Forms 2848               Percentage
                                                                                                      Population

No Copy Provided With Response
                                                     154                        20.9%               27,565-36,555
or Incorrect Copy Provided

No response to Request                                91                        12.4%               15,307-22,582

Total Documents Not Provided or
                                                     245                        33.3%               45,798-56,213
Incorrect

No Issues                                            471                        64.0%               92,571-103,359

Post Office Returned As
                                                      20                         2.7%                 2,367-5,960
Undeliverable

Totals                                               736                         100%                   153,224



     Source: Our analysis of tax professionals’ responses to our request for documentation.

A copy was incorrect if it did not contain evidence of the taxpayer approving submission of a
power of attorney before the tax professional submitted it on Disclosure Authorization. For
example, we considered a copy to be incorrect if it did not have a taxpayer signature with a date
on or before the date the tax professional submitted the power of attorney electronically or if
there was not a taxpayer signature at all.
The IRS risks unauthorized disclosures of taxpayer information when tax professionals obtain
access to taxpayer data without a signed Form 2848. When tax professionals use Form 2848 for
purposes other than for what it is intended, they are circumventing IRS controls in place to
protect taxpayer information. When tax professionals are able to circumvent Disclosure
Authorization controls that prevent them from filing powers of attorney electronically, they may
be obtaining powers of attorney for taxpayers they have no right to represent.

10
   A sample size of 736 requests to tax professionals and error rates of 20.9 percent, 12.4 percent, and 33.3 percent
allowed us to project our results to the total population of 153,224 Forms 2848 at a 95 percent confidence level with
precision rates of ±2.9 percent, ±2.4 percent, and ±3.4 percent, respectively. A point projection of 64 percent for
instances in which there were no issues allowed us to project our results at a 95 percent confidence level with a
precision rate of ±3.5 percent. For the 20 requests that were undeliverable, a 2.7 percent point projection allowed us
to project our results at a 95 percent confidence level with a precision rate of ±1.2 percent.
                                                                                                              Page 7
                                        Insufficient E-Services Controls May
                                         Put Taxpayer Information at Risk



*****************************************2(f)**************************************************
*************2(f)************
Although the IRS requires tax professionals to obtain a signed copy of a Form 2848 before they
submit a power of attorney through Disclosure Authorization,******************2(f)*****
*********************2(f)**************. In fact, many tax professionals may be unaware
of requirements to maintain a hardcopy Form 2848.
After receiving our confirmation letters, five tax professionals called us and stated they were not
aware of requirements to maintain a signed Form 2848. Two tax professionals stated they had
called the e-Help desk11 for clarification, and assistors advised them there was not a requirement
to maintain the signed Form 2848.
On January 27, 2012, we advised the IRS of the situation. The IRS took immediate action;
therefore, we are not making any further recommendations at this time. The IRS responded that
it would remind assistors of and reinforce the requirement for tax professionals to maintain a
signed Form 2848 when they submit powers of attorney through Disclosure Authorization by:
        Reinforcing the requirement during assistors’ team meetings and issuing an e-Help
         Communication to assistors.
        Adding a reminder of the requirement to the existing e-Help assistor solutions document.
        Updating the Internal Revenue Manual.
Tax professionals are not required to send the IRS the original or a copy of the Forms 2848 they
use to electronically submit a power of attorney through Disclosure Authorization. Additionally,
the IRS *********************************2(f)********************************
****************************************2(f)***********************************
***********************2(f)***********************. The IRS does conduct compliance
reviews of tax return preparers, *****************2(f)****************************.
These controls come with costs. Requiring tax professionals to mail or fax signed Forms 2848
has limitations and would be costly. **********************2(f)*******************
******************************************2(f)*********************************
******************************************2(f)*********************************
******************************************2(f)********************************
********2(f)****************. This effort could also be part of the IRS’s annual filing
season visitations to return preparers to heighten awareness of preparer responsibilities.
**************************************2(f)************************************
**************************************2(f)**********************************
****************2(f)************.

11
  The e-Help desk assists e-Services users with questions and issues concerning e-products that are not account
related.
                                                                                                            Page 8
                                      Insufficient E-Services Controls May
                                       Put Taxpayer Information at Risk



E-Services Disclosure Authorization and Transcript Delivery System are being
used for other than their intended purposes
Tax professionals are using e-Services to circumvent standard IRS procedures and controls by
submitting Form 2848 for the sole purpose of ordering and providing transcripts for taxpayers.
This allows them to obtain an account transcript for taxpayers within minutes. Form 2848 states
that the IRS will not honor it for any purpose other than representing a taxpayer before the IRS.
Figure 5 provides an excerpt from Form 2848.
                                Figure 5: Excerpt From Form 2848




     Source: IRS Form 2848.

Commercial Internet websites offer to provide taxpayers, for a fee, tax account information. To
obtain taxpayers’ tax return information, taxpayers are asked to provide the information needed
to submit a Form 2848 through Disclosure Authorization. After submitting the power of
attorney via Disclosure Authorization, tax professionals can immediately obtain tax account
transcripts through e-Services Transcript Delivery System. We identified websites that charged
taxpayers as much as $39.95 or more for this service.
The IRS has established procedures and controls to safeguard a taxpayer’s Personally
Identifiable Information, which includes the information contained on a tax account transcript.
                                                 When taxpayers want to obtain their tax account
  Personally Identifiable Information            transcripts, they can obtain their own records for
  includes an individual’s:
                                                 free by:
      Name.
      Address.                                         Using the IRS Automated Self-Help
      E-mail Address.                                   Service Tools on the IRS’s public
      Social Security Number.                           Internet site, IRS.gov.
      Telephone Number.
      Bank Account Number.                             Calling an IRS toll-free telephone line.
      Date and Place of Birth.
      Mother’s Maiden Name.                            Using an app on a mobile device.
      Biometric Data (e.g., height, weight, eye
       color, finger prints).                           Visiting a local IRS office or sending a
                                                         request to the IRS.



                                                                                             Page 9
                                  Insufficient E-Services Controls May
                                   Put Taxpayer Information at Risk



In most cases, the taxpayer would receive the account transcript in approximately two weeks.
However, taxpayers can obtain an account transcript the same day they visit a local IRS office.
Regardless of the method used to obtain a transcript, taxpayers must authenticate themselves. If
ordering online or via an app on a mobile device, the IRS will mail the tax return information
only to the taxpayer’s address of record. Therefore, individuals other than the taxpayer who may
have the taxpayer’s information will not be able to have a transcript sent to them.
***********************************2(f)************************************
***********************************2(f)****************************************
****2(f)*****. In addition, taxpayers could be unaware the tax professional is first submitting a
power of attorney to the IRS, which:
      Allows a tax professional complete access to a taxpayer’s tax records. A power of
       attorney authorizes the listed representative to receive and inspect confidential tax
       information and to perform all acts that taxpayers can perform with respect to matters
       described in the power of attorney.
      Supersedes any existing powers of attorney on file with the IRS for the specified tax
       year(s). By doing so, tax professionals whom the taxpayer has legitimately authorized to
       represent them will no longer be able to do so.
The IRS is not conducting trending or data analysis that would identify the tax professionals
engaged in this practice. However, it maintains records of every power of attorney submitted via
Disclosure Authorization and every transcript request made via the Transcript Delivery System.
The IRS could use these records to identify tax professionals who may be misusing Form 2848 to
order account transcripts.
The IRS must be able to assure taxpayers it is protecting their confidential tax return information.
It should have sufficient internal controls that detect potential misuse of its systems that disclose
taxpayer information to third parties, including controls to identify transactions that may not
meet its policies and procedures.
Taxpayers who do not wish to obtain their own tax return information can allow third parties to
obtain them by completing a Form 4506-T
Form 4506-T allows taxpayers to give interested third parties the authority to obtain their
confidential tax return information without giving them a power of attorney. Taxpayers may
complete a Form 4506-T and either send it to the IRS or have the third party send it to the IRS.
Additionally, the IRS offers the Income Verification Express Services Program, in which third
parties can verify income information on behalf of a taxpayer. For third parties to obtain
transcripts, taxpayers can complete and provide the third party with either a completed
Form 4506-T or a Form 4506T-EZ, Short Form Request for Individual Tax Return Transcript.
See Figure 6 for an excerpt of Form 4506-T.

                                                                                            Page 10
                                     Insufficient E-Services Controls May
                                      Put Taxpayer Information at Risk



                               Figure 6: Excerpt From Form 4506-T




          Source: IRS Form 4506-T.

The request must include the name, address, and telephone number of the third party to whom
the IRS should send the income information. Income Verification Express Service participants
pay $2.00 per request and FAX a Form 4506-T to the IRS. In turn, the IRS e-mails the requested
information to the participant’s secure e-Services mailbox.

Tax professionals who are not authorized are using Disclosure Authorization to
file powers of attorney
The IRS allows only certain tax professionals to access and use Disclosure Authorization. They
include:
         Attorneys, certified public accountants, or enrolled agents who may represent taxpayers
          in proceedings before the IRS.
         Electronic Return Originators who have e-filed five or more accepted returns.
However, although they can access Disclosure Authorization, the IRS does not permit Electronic
Return Originators who are unenrolled tax return preparers or registered tax return preparers to
submit powers of attorney electronically. The IRS requires that Forms 2848 be submitted on
paper so that it can review the request to ensure unenrolled tax return preparers and registered tax
return preparers meet the requirements to represent the taxpayer.
To circumvent this control and obtain immediate powers of attorney and transcripts, ***2(f)***
******************************************2(f)********************************
******************************************2(f)*******************************
******************************************2(f)*******************************
********************2(f)*********************.
********************************2(f)**********************************:12
         1 (3.3 percent) *****************2(f)**********************.


12
     **********************************2(f)******************************************.
                                                                                           Page 11
                                   Insufficient E-Services Controls May
                                    Put Taxpayer Information at Risk



      1 (3.3 percent) ******************2(f)********************.
      4 (13.3 percent) ******************2(f)**********************.
      5 (16.7 percent) ********************2(f)************************.
      18 (60 percent) ***********************2(f)******************************.
The IRS************************************2(f)*******************************
*****************************2(f)*******************************.
The IRS originally granted e-Services access to tax return preparers who met e-file requirements
as part of an incentive program to persuade tax return preparers to e-file their clients’ tax returns.
However, the IRS has not recently reviewed its policies for granting Disclosure Authorization
access to the various types of tax professionals to determine if they need access to e-Services
online tools. Specifically, it has not determined if unenrolled tax return preparers or registered
tax return preparers who do not qualify as attorneys, certified public accountants, or enrolled
agents should continue to have access to e-Services online tools. ***********2(f)*******
***************************************2(f)**********************************
***************************************2(f)***********************************.
If the IRS decides not to change its access policies for unenrolled and registered tax return
preparers, *********************************2(f)******************************
*****************************************2(f)********************************
*****************2(f)***********************.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Identify tax professionals using Disclosure Authorization for purposes
other than its intended purposes. This will allow the IRS to take appropriate corrective actions,
such as deactivating access to Disclosure Authorization, for tax professionals who present a risk.
The IRS may identify tax professionals who submit unusually large volumes of Forms 2848,
especially if they are not preparing tax returns, and determine if they used the powers of attorney
to circumvent the IRS’s process for requesting transcripts.
       Management’s Response: IRS management did not agree tax professionals are
       improperly using Disclosure Authorization by requesting transcripts. The instructions to
       the Form 2848 state that authorization of an eligible representative will allow that
       individual to receive and inspect confidential tax information.
       Office of Audit Comment: IRS management did not agree tax professionals are
       improperly using Disclosure Authorization by requesting transcripts; however, that is not
       the basis of our conclusion or recommendation. Tax professionals are using Disclosure

                                                                                              Page 12
                                 Insufficient E-Services Controls May
                                  Put Taxpayer Information at Risk



       Authorization to obtain a power of attorney for the sole purpose of obtaining a tax
       transcript. As stated at the top of Form 2848, the purpose of a power of attorney is to
       designate a person or persons to represent a taxpayer before the IRS. The IRS states it
       will not honor the power of attorney if it is submitted for any other purpose. While a
       representative may need to obtain tax transcripts when representing a taxpayer, a
       representative should not obtain a power of attorney for the sole purpose of obtaining tax
       transcripts without intending to represent the taxpayer before the IRS. The IRS already
       has a process in place that allows a taxpayer to authorize tax professionals to obtain tax
       transcripts without the same potential for circumventing privacy controls, giving tax
       professionals additional powers, or unintentionally superseding any existing powers of
       attorney.
Recommendation 2: **********2(f)**************** to verify that tax professionals are
obtaining and retaining a signed power of attorney before submitting one through Disclosure
Authorization. *******************************2(f)****************************
****************************************2(f)******************************.
       Management’s Response: IRS management agreed that some tax professionals may
       be unaware of the requirements to obtain and maintain a hard copy of the signed
       Form 2848. The IRS will take actions to better educate Disclosure Authorization users of
       the requirement to obtain a signed Form 2848 prior to its electronic submission and to
       maintain the signed copy in the authorized representative’s files.
       Office of Audit Comment: IRS management did not agree to develop a confirmation
       program. While taking actions to better educate Disclosure Authorization users of the
       requirements to obtain and maintain signed Forms 2848 prior to electronic submissions
       will address the issue, management will not be able to measure the effectiveness of these
       steps or ensure continuing compliance with them without developing a confirmation
       program to verify that tax professionals are complying with the requirements.
Recommendation 3: Reassess the policy for granting Disclosure Authorization access to
unenrolled tax return preparers and registered tax return preparers. If the IRS decides not to
grant them access to online tools, the IRS should ensure they no longer have access to Disclosure
Authorization. If the IRS decides to continue granting access to unenrolled tax return preparers
and registered tax return preparers, it should ********************2(f)***************
****************************************2(f)*********************************
****************************************2(f)*************************.
       Management’s Response: *********************2(f)**********************
       *****************************************2(f)**************************
       ****************************************2(f)*****************************
       ********2(f)********. The IRS will reassess the current policy regarding access to


                                                                                          Page 13
                                     Insufficient E-Services Controls May
                                      Put Taxpayer Information at Risk



           Disclosure Authorization and the Transcript Delivery System for unenrolled and
           registered return preparers and will take appropriate follow-up action.

Internal Revenue Service Employees Have Access to E-Services
IRS employees have access to e-Services online tools, but are prohibited from participating in
tax preparation activities.13 The IRS should not allow IRS employees to have access to
Disclosure Authorization and the Transcript Delivery System without managerial authorization
and a business need.
The IRS should also take steps to ensure its new employees who previously worked as tax
professionals do not have access to e-Services. Employees could use their access capabilities to
make unauthorized accesses of taxpayer information. Although the IRS electronically captures
all Disclosure Authorization and Transcript Delivery System transactions by these employees,
just as it does for all users, it does not have controls in place to monitor these transactions for
unauthorized accesses of taxpayer information, and the system does not allow for comparisons to
existing employee records.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should ensure IRS
employees do not have unauthorized access to e-Services online tools by periodically matching
IRS personnel information to a listing of e-Services users. The IRS should revoke the e-Services
access of employees not authorized to have it and monitor the transactions of employees who are
authorized access.
           Management’s Response: IRS management agreed that IRS employees should not
           have access to e-Services without a legitimate business need. The IRS requested the list
           of employees and the methodology used during the audit to determine if employees may
           have unauthorized e-Services access through the Registered User Portal. Once the IRS
           has received the information, it will further investigate and deactivate any accounts found
           to have unauthorized access.




13
     5 C.F.R. § 3101.106.
                                                                                              Page 14
                                       Insufficient E-Services Controls May
                                        Put Taxpayer Information at Risk



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine if controls over e-Services are sufficient to prevent
unauthorized access to taxpayer information. This included evaluating and assessing the internal
controls of the e-Services Program and its online tools, including controls that prevent tax
practitioners and other users from improperly obtaining access to taxpayer information by
electronically filing fraudulent power of attorney and/or transcript requests. To accomplish this
objective, we:
I.      Determined if IRS policies and internal controls for providing tax professionals access to
        e-Services online tools limits the potential for fraud and unauthorized disclosures.
        A. Determined if the current policies and rules for granting tax professionals access to
           e-Services online tools minimize the risks of granting access to users who wish to
           commit fraud.
        B. Identified and evaluated the internal controls that ensure e-Services users with access
           to the online tools are qualified to receive it.
II.     Determined if the controls for processing transcript requests submitted via the Transcript
        Delivery System effectively detect and prevent unauthorized disclosures of taxpayer
        information.
        A. Selected two statistically random samples, each with 300 third-party transcript
           requests, from the 2.5 million third-party transcript requests submitted via the
           Transcript Delivery System during Calendar Year 2011 for which the IRS provided
           the user with the requested information.
                The first sample included third-party transcript requests for which the Transcript
                 Delivery System indicated that the Centralized Authorization File1 was checked
                 before completing the request.
                The second sample included third-party transcript requests for which the
                 Transcript Delivery System indicated that the Centralized Authorization File was
                 not checked before completing the request.
             We based our sampling plans on a confidence level of 95 percent, expected error rates
             of 1 and 2 percent, and a precision of ±2 percent, resulting in minimum sample sizes

1
  The Centralized Authorization File is a computerized system of records which houses authorization information
from both powers of attorney and tax information authorizations.
                                                                                                         Page 15
                                         Insufficient E-Services Controls May
                                          Put Taxpayer Information at Risk



               of 95 and 188. We oversampled to 300 in each category to account for any
               unforeseen circumstances. We compared the samples to the Centralized
               Authorization File to determine if it contained a corresponding power of attorney for
               the specific tax period disclosed to the tax professional.
           B. Determined if the IRS performs any electronic detection testing to identify improper
              disclosures.
III.       Determined if the controls for processing Forms 2848, Power of Attorney and
           Declaration of Representative, submitted through Disclosure Authority effectively detect
           and prevent unauthorized disclosures by selecting a statistically valid sample of
           750 Forms 2848 from the 153,224 Forms 2848 submitted by tax professionals in October
           and November 2011. We based our sampling plan on a confidence level of 95 percent,
           an expected error rate of 15 percent, and a precision of ±5 percent, resulting in a
           minimum sample size of 196. Expecting an approximate 30 percent response rate from
           taxpayers, we oversampled to 750 Forms 2848. To determine if tax professionals had
           received approval from taxpayers to request transcripts before ordering them, we:
           A. Mailed letters to the 560 tax professionals who submitted 736 of the 750 Forms 2848
              and asked them to send us paper copies of the Forms 2848 submitted.2
           B. Mailed 747 letters to the taxpayers named on the 750 Forms 2848.3 We asked the
              taxpayers to confirm that they gave the tax professional permission to file a power of
              attorney and that they signed a Form 2848.
IV.        Determined if tax professionals not authorized to submit Forms 2848 using Disclosure
           Authorization actually submitted them using it.
           A. Analyzed the IRS preparer file to identify those preparers who were not certified
              public accountants, attorneys, or enrolled agents and compared them to those who had
              submitted Forms 2848 using Disclosure Authorization during October or
              November 2011.
           B. *******************************2(f)*******************************
              *******************************2(f)********************************
              *******************************2(f)*********************************
              *******************************2(f)***********************************
              *******************************2(f)***********************************
              *******************************2(f)***********.
V.         We obtained Disclosure Authorization and Transcript Delivery System data processed
           from e-Services online tools and stored on the Data Center Warehouse. We evaluated the

2
    We were unable to mail requests for 14 of the 750 Forms 2848.
3
    We were unable to locate addresses for three taxpayers.
                                                                                             Page 16
                                       Insufficient E-Services Controls May
                                        Put Taxpayer Information at Risk



        expected importance of the data and the anticipated level of risk in relying on the
        computer-generated data obtained from Forms 2848 filed by tax professionals. We also
        analyzed the dates of transactions to determine there was not missing data. In addition,
        we compared these data to information on the Integrated Data Retrieval System4 and
        determined the validity of the data. Our analysis determined the data were sufficiently
        reliable for our audit purposes.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices for preventing unauthorized access to taxpayer information. We evaluated these
controls by interviewing management, reviewing the Internal Revenue Manual, reviewing the
IRS’s efforts to monitor e-Services online tools, and conducting a confirmation program to
identify powers of attorney submitted by tax professionals with taxpayer permission.




4
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 17
                                Insufficient E-Services Controls May
                                 Put Taxpayer Information at Risk



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Paula W. Johnson, Acting Director
Wilma Figueroa, Audit Manager
Kenneth Carlson, Acting Audit Manager
Pam DeSimone, Senior Auditor
Lynn Faulkner, Senior Auditor
Jack Forbus, Senior Auditor
Geraldine Vaughn, Senior Auditor
Nelva Usher, Auditor
James Avery, Chief, Modernized UNAX Development
Valerie Livingood, Information Technology Specialist
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                     Page 18
                              Insufficient E-Services Controls May
                               Put Taxpayer Information at Risk



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner for Services and Operations, Wage and Investment Division SE:W
Director, Office of Online Services SE:OLS
Director, Office of Professional Responsibility SE:OPR
Director, Return Preparer Office SE:RPO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                  Page 19
          Insufficient E-Services Controls May
           Put Taxpayer Information at Risk



                                                 Appendix IV

Confirmation Letter Sent to Taxpayers




                                                      Page 20
Insufficient E-Services Controls May
 Put Taxpayer Information at Risk




                                       Page 21
Insufficient E-Services Controls May
 Put Taxpayer Information at Risk




                                       Page 22
              Insufficient E-Services Controls May
               Put Taxpayer Information at Risk



                                                     Appendix V

Confirmation Letter Sent to Tax Professionals




                                                          Page 23
Insufficient E-Services Controls May
 Put Taxpayer Information at Risk




                                       Page 24
        Insufficient E-Services Controls May
         Put Taxpayer Information at Risk



                                               Appendix VI

  Form 2848, Power of Attorney
and Declaration of Representative




                                                    Page 25
Insufficient E-Services Controls May
 Put Taxpayer Information at Risk




                                       Page 26
            Insufficient E-Services Controls May
             Put Taxpayer Information at Risk



                                                   Appendix VII

Management’s Response to the Draft Report




                                                         Page 27
Insufficient E-Services Controls May
 Put Taxpayer Information at Risk




                                       Page 28
                                 Insufficient E-Services Controls May
                                  Put Taxpayer Information at Risk



                                                                                      Attachment

The Commissioner, Wage and Investment Division, should:

RECOMMENDATION 1
Identify tax professionals using Disclosure Authorization for purposes other than its intended
purposes. This will allow the IRS to take appropriate corrective actions, such as deactivating
access to Disclosure Authorization, for tax professionals who present a risk. The IRS may
identify tax professionals who submit unusually large volumes of Forms 2848, especially if they
are not preparing tax returns, and determine if they used the powers of attorney to circumvent the
IRS's process for requesting transcripts.

CORRECTIVE ACTION
We do not agree with the conclusion that tax professionals are improperly using Disclosure
Authorization (DA) by requesting transcripts. The instructions to the Form 2848 state that
authorization of an eligible representative will allow that individual to receive an inspect
confidential tax information.

IMPLEMENTATION DATE
N/A

RESPONSIBLE OFFICIAL
N/A

CORRECTIVE ACTION MONITORING PLAN
N/A

RECOMMENDATION 2
********2(f)*******************to verify that tax professionals are obtaining and retaining a
signed power of attorney before submitting one through Disclosure Authorization.
***2(f)******
**********************************2(f)*****************************************
*********************************2(f)***************************.

CORRECTIVE ACTION
We agree that some tax professionals may be unaware of the requirement to obtain and maintain
a hard copy of the signed Form 2848. We will take actions to better educate users of DA of the
requirement to obtain a signed Form 2848 prior to its electronic submission and to maintain the
signed copy in the authorized representative's files.

IMPLEMENTATION DATE

                                                                                          Page 29
                                 Insufficient E-Services Controls May
                                  Put Taxpayer Information at Risk



October 15, 2013

RESPONSIBLE OFFICIAL
Director, Accounts Management, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 3
Reassess the policy for granting Disclosure Authorization access to unenrolled tax return
preparers and registered tax return preparers. If the IRS decides not to grant them access to
online tools, the IRS should ensure they no longer have access to Disclosure Authorization. If
the IRS decides to continue granting access to unenrolled tax return preparers and registered tax
return preparers, it should
************************************2(f)********************************
*************************************2(f)*************************************
********************************2(f)**************************.

CORRECTIVE ACTION
********************************************2(f)*******************************
*******************************************2(f)********************************
************************2(f)*******************. We will reassess the current policy
regarding access to DA and TDS for unenrolled and registered return preparers, and will take
appropriate follow up action.

IMPLEMENTATION DATE
October 15, 2013

RESPONSIBLE OFFICIAL
Director, Accounts Management, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.

RECOMMENDATION 4
The Commissioner, Wage and Investment Division, should ensure IRS employees do not have
unauthorized access to e-Services online tools by periodically matching IRS personnel
information to a listing of e-Services users. The IRS should revoke the e- Services access of
employees not authorized to have it and monitor the transactions of employees who are
authorized access.


                                                                                            Page 30
                                 Insufficient E-Services Controls May
                                  Put Taxpayer Information at Risk



CORRECTIVE ACTION
We agree that IRS employees should not have access to e-Services without a legitimate business
need. We have established procedures through our Online 5081 application to document
authorization and to validate, regularly, employees' access to DA and TDS through the Employee
User Portal. We have requested the list of employees and the methodology used during the audit
to determine if they may have unauthorized e-Services access through the Registered User
Portal. Once we have received the information, we will further investigate and deactivate any
accounts found to have unauthorized access.

IMPLEMENTATION DATE
October 15, 2012

RESPONSIBLE OFFICIAL
Director, Accounts Management, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management control system.




                                                                                            Page 31
